April 14, 2009

DAVID E. WILLIAMS
MANAGER, PROCESSING OPERATIONS

SUBJECT: Audit Report – Follow-up Audit of the Management Operating Data System
         (Report Number CRR-AR-09-004)

This report presents the results of our follow-up audit of the Management Operating
Data System (MODS) (Project Number 08RG011CRR000). The objectives of this audit
were to determine the root causes of anomalous MODS data1 at U.S. Postal Service
Processing and Distribution Centers/Facilities (P&DC/F) and whether changes
implemented by the Postal Service in 2008 reduced occurrences of anomalous data.
The Postal Accountability and Enhancement Act of 2006 requires the U.S. Postal
Service Office of Inspector General (OIG) to audit the data collection systems and
procedures the Postal Service uses in its ratemaking process. This is a self-initiated
audit that addresses both operational and financial risks. See Appendix A for additional
information about this audit.

Conclusion

Management made operational changes that reduced the number of anomalies in
MODS data. Headquarters personnel are currently working with area and facility
managers to streamline MODS operation numbers and still communicate relevant mail
processing information. However, about 18.5 percent of MODS data still contained
anomalies. MODS data is used extensively in Postal Service costing and pricing
activities, and the reliability of the anomalous MODS data affects the development of
Postal Service costing and pricing estimates. Continued attention to reducing
anomalous MODS data can improve data integrity, increase public confidence in Postal
Service cost and price estimates, and preserve customer goodwill and the Postal
Service brand. We will report protection of data integrity and preservation of goodwill
and the Postal Service brand as non-monetary benefits in our Semiannual Report to
Congress.



1
  A MODS anomaly is an apparent error in MODS data that is self-identifying or explicit. These anomalies include
negative mail volume or workhours; zero volume but workhours recorded, or zero workhours but volume recorded;
first handling piece (FHP) mail volume greater than total pieces handled (TPH) mail volume; and productivity ratios
(volume to workhours) that are too high or low. We did not examine MODS anomalies related to productivity ratios.
Follow-up Audit of the Management Operating Data System                                 CRR-AR-09-004



The root causes of MODS anomalies were primarily misclocking and auto-credit2 issues
that could be mitigated with streamlined MODS operation numbers. Nationwide, the
MODS anomalies for a 1-week period we examined constitute about 2.2 percent of mail
volume and 4.7 percent of workhours reported for that week.

Annual MODS reviews were conducted by management at the nine P&DCs we
examined. However, managers at the facilities were not using MODS exception reports
to identify and correct MODS data anomalies. Using the MODS exception reports and
developing additional MODS training materials and training sessions that emphasize the
importance of clocking into the correct MODS operation would increase the accuracy of
MODS data.

Operational Changes Have Nearly Eliminated Some MODS Anomalies, but Others
Persist

In fiscal year (FY) 2008, the Postal Service stopped weighing mail to obtain mail volume
estimates. Instead, the Web End of Run (WebEOR)3 software was modified to
automatically calculate FHP4 mail volume at automated mail processing facilities. This
helped reduce negative mail volume anomalies by 99.7 percent and FHP volume
greater than TPH5 volume anomalies by 95.4 percent.

However, these changes have not materially reduced two other categories of MODS
anomalies—zero volume but workhours recorded, and zero workhours but volume
recorded. These anomalies were primarily caused by misclocking and auto-credit
issues at MODS facilities. MODS exception reports can identify these two recurring
MODS anomalies. These reports are a good tool to assist postal personnel in
correcting recurring MODS anomalies. The MODS policies and procedures and auto-
credit programs are currently being updated. Developing updated training materials and
issuing guidance on MODS exception reports will further reduce anomalous MODS
data. See Appendix B for our detailed analysis of this topic.

We recommend that the Manager, Processing Operations, direct the Manager,
Operations Technical and System Integration Support, to:

    1. Develop training materials and training sessions for supervisors and employees
       that emphasize the importance of clocking into the correct Management
       Operating Data System operation.

2
  Auto-credits are percentages of FHP mail volume that flow from WebEOR to MODS. For example, the mail volume
from opening operations such as hand cancellations, metered mail, and meter bypass was originally obtained by
weighing the mail. Now, these operations receive an auto-credit based on the percentage of mail in a distribution
operation (one that receives mail from other operations) that came from various operations.
3
  WebEOR xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx stores EOR (piece count) data from mail processing
equipment. An EOR file is created each time a sort run is processed. This data is then transmitted to MODS.
4
  FHP refers to a letter, flat, or parcel that is sorted at a P&DC for the first time.
5
  TPH is the sum of FHP plus subsequent handling piece, or total pieces fed into a mail processing machine, minus
any rejected pieces.




                                                        2
Follow-up Audit of the Management Operating Data System                CRR-AR-09-004




   2. Develop guidance and ensure Management Operating Data System users are
      trained in the use of exception reports as a tool to identify and correct recurring
      anomalies.

Management’s Comments

Management generally agreed with our finding and recommendations. Management
indicated that MODS data has always been used at higher levels of operation
aggregation in significant part to avoid costing inaccuracies due to operational issues
such as clocking practices. They also noted that some instances of FHP being greater
than TPH are valid, and agreed that reducing the number of MODS operations numbers
will result in fewer clock ring errors, but operations numbers needed for volume
recording will remain. Management’s comments, in their entirety, are included in
Appendix D.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report.
Based on management’s comments, we amended our description of the relationship
between MODS data and Postal Service costs.

Management did not agree or disagree with our non-monetary impacts. We will report
protection of data integrity and preserving customer goodwill and the Postal Service
brand as non-monetary impacts in our Semiannual Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, Director, Cost,
Revenue, and Rates, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments




                                                  3
Follow-up Audit of the Management Operating Data System   CRR-AR-09-004



cc: William P. Galligan
    Anthony M. Pajunas
    Linda Malone
    Katherine S. Banks




                                                  4
Follow-up Audit of the Management Operating Data System                                       CRR-AR-09-004



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The MODS, initially deployed in 1971, collects and reports data on mail volume,
workhours, and machine utilization at major mail processing facilities.6 MODS data is
reviewed by field and headquarters managers to plan mail processing activities, project
workhours and mail volumes, and evaluate facilities’ efficiency. Standard three-digit
MODS operation numbers are assigned to various Postal Service work activities;
volume and workhour information is then recorded against the MODS operation
numbers. More than 800 MODS operation numbers are used to categorize various
activities.

MODS uses WebEOR software to collect mail volume (piece count) data from
automated processing equipment. Prior to January 2008, FHP mail volume was
calculated by weighing the mail and converting the weight into piece counts using
conversion rates. In December 2007, weighing of mail was phased out, and WebEOR
now calculates FHP mail volume. Nonautomated mail processing activities such as
opening unit and manual operations receive FHP mail volume estimates from WebEOR.

Workhours for each MODS operation are collected through the Time and Attendance
Collection System (TACS). When employees work at an operation, they enter a MODS
operation number into an Employee Badge Reader (EBR). Their workhours are then
recorded in that operation. Supervisors can also manually enter or adjust the employee
clock rings. Postal Service policy7 states that field offices are responsible for accurately
recording volume and workhours in MODS in a timely manner.

In addition to its operational uses, MODS mail volume and workhour data are used
extensively in Postal Service costing and pricing activities. The reliability of the MODS
data directly affects the reliability of the Postal Service cost and price estimates.

In Postal Service costing, total costs taken from payroll records, along with workhour and
mail volume data recorded in MODS operation numbers, are used in conjunction with
other systems to apportion costs among the major operations. For example, MODS data
is used to develop Postal Service Cost Segment 3 costs. Cost Segment 3 includes the
salaries and benefits of clerks8 and mail handlers at plants and large post offices. In FY
2008, the accrued costs for this segment totaled about $18 billion.




6
  Major mail processing facilities include more than 460 P&DC/Fs, bulk mail centers, airport mail centers/facilities,
and logistics and distribution centers.
7
  Handbook M-32, Management Operating Data System, Section I-7.3, April 2000.
8
  Clerks refers to Sales, Services, and Distribution Associates and other employees performing mail processing,
window service, and administrative and support activities.




                                                            5
Follow-up Audit of the Management Operating Data System                               CRR-AR-09-004



OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to determine the root causes of anomalous MODS
data at P&DC/Fs and whether changes implemented by the Postal Service in 2008
reduced occurrences of anomalous data.

To identify MODS anomalies at all MODS P&DC/Fs nationwide, we retrieved data from
the MODS and the Mail and Image Reporting System (MIRS) databases for the weeks
of September 20 – 26, 2007, and September 20 – 26, 2008. We then compared the
2007 and 2008 MODS anomalies and calculated the changes in their numbers. We
also used MIRS and MODS data for the period September 20 – 26, 2008, to identify
what are, now, the most frequently occurring MODS anomalies. We assessed the
reliability of MODS data in our prior audit. We performed comparative tests of MODS
and MIRS data and concluded that we could use the data to support our objectives.

To determine the root causes of anomalous MODS data, we examined MODS
anomalies at nine P&DC/Fs.9 At each facility, we used MIRS to identify MODS
anomalies for a 1-week period. We then worked with facility management to determine
the root causes of the MODS anomalies and to determine the correct recording of the
anomalous mail volume or workhours.

To determine whether the changes reduced MODS anomalies, we reviewed MODS
data for a 1-week period at all MODS facilities, both before and after the changes were
implemented. For this comparison, we examined four types of MODS anomalies:

    • Negative mail volume.

    • FHP greater than TPH.

    • Zero volume but workhours recorded.

    • Zero workhours but volume recorded.

We conducted this performance audit from February 2008 through April 200910 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our

9
  Atlanta, GA, P&DC (Southeast Area); Fargo, ND, P&DF (Western Area); Frederick, MD, P&DF (Capital Metro Area);
Mid-Island (Melville, NY) P&DC (New York Metro Area); North Bay (Petaluma, CA) P&DC (Pacific Area); Roanoke,
VA, P&DC (Eastern Area); Springfield, IL, P&DC (Great Lakes Area); Stamford, CT, P&DC (Northeast Area); and
Tulsa, OK, P&DC (Southwest Area).
10
   Due to resource constraints, the audit was suspended June – October 2008.




                                                      6
Follow-up Audit of the Management Operating Data System               CRR-AR-09-004



observations and conclusions with management officials on March 26, 2009, and
included their comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG audit report, Management Operating Data System (Report Number
MS-AR-07-003, dated August 21, 2007), reported that MODS internal controls were
generally effective and MODS data was valid and reliable when used for the purpose for
which it is intended – to assess overall plant efficiency. However, internal controls were
not effective in ensuring that volume and workhour data recorded against MODS
operation numbers was valid. We recommended certain system-wide internal control
improvements:

   •   Updating outdated policies, procedures, and on-line training materials.

   •   Developing guidelines for correcting MODS volume and workhour errors.

   •   Performing MODS reviews annually.

Management agreed with our recommendations and developed initiatives to address
the issues.




                                                  7
Follow-up Audit of the Management Operating Data System                                   CRR-AR-09-004



                                APPENDIX B: DETAILED ANALYSIS

Operational Changes Have Nearly Eliminated Some MODS Anomalies, but Others
Persist

Management has taken steps to improve the accuracy of MODS data and reduce the
number of MODS data anomalies. In January 2008, the Postal Service stopped
weighing mail to estimate FHP mail volume. Weighing the mail was subject to human
error, including incorrectly categorizing the mail, incorrectly entering the weight, or
weighing the mail twice. Further, conversion rate factors used to calculate mail volume
were found to be inaccurate.

To address these issues, WebEOR software was modified to automatically calculate
FHP mail volume. These changes have eliminated most MODS anomalies related to
negative mail volume and FHP volume greater than TPH volume. A 1-week
comparison shows those two anomalies were reduced by more than 95 percent from
the same period before the changes were implemented. However, MODS anomalies in
two other categories, zero volume but workhours recorded and zero workhours but
volume recorded, have not been materially reduced.

Nationwide Analysis

For the week of September 20 – 26, 2008, there were 183,764 lines of MODS data, of
which 34,048 lines (18.5 percent) were anomalous. The 34,048 MODS anomalies
represented about 2.2 percent of mail volume11 and about 4.7 percent of workhours
reported12 during that 1-week period. Table 1 summarizes the comparison of MODS
anomalies.

                            Table 1. Comparison of MODS Anomalies

                                                Number of Anomalies
                                              September     September                    Percentage
        Type of Anomaly                      20 – 26, 2007 20 – 26, 2008                  Change
        Negative mail volume                       975              3                       -99.7
        FHP greater than TPH                    12,124           562                       -95.4
        Zero volume but
         workhours recorded                      13,754                13,993                 +1.7
        Zero workhours but
         volume recorded                         20,307                19,490                  -4.0
         Totals                                  47,160                34,048



11
   Mail volume percentage is average FHP and TPH volume in anomalies (120,874,501 pieces) divided by average
total FHP and TPH volume reported (5,553,051,465 pieces).
12
   Workhour percentage is total workhours in anomalies (273,998) divided by total workhours reported (5,910,613).




                                                         8
Follow-up Audit of the Management Operating Data System                       CRR-AR-09-004



Nationwide, 11,859 of the 34,048 (35 percent) MODS anomalies occurred in 20 MODS
operation numbers. For 13 of the 20 MODS operation numbers, more than 50 percent
of the MODS data was anomalous. Although the anomalous data might have multiple
causes, misclocking was identified as a possible cause in 17 of the 20 MODS operation
numbers. Employees were not clocking into the correct MODS operation numbers, and
supervisors were not moving employees to the correct MODS operation number when
they gave a new assignment. For 14 of the 20 operation numbers, auto-credit issues
were identified as a possible cause. In five of the MODS operation numbers, the
employees were working in hand cancellations or other cancellations and rotating
between nine MODS operation numbers. For three of the MODS operation numbers,
the employees were not assigned a base operation number in TACS. In those
instances, TACS automatically assigned MODS operation numbers based on labor
distribution codes (LDCs) and recorded the employee workhours under that operation
number. Appendix C lists the MODS operation numbers and possible causes for the
anomalous data.

MODS Anomalies at Nine Facilities

At the nine facilities we examined, misclocking, auto-credits, and miscellaneous errors
accounted for about 63 percent, 31 percent, and 6 percent, respectively, of the MODS
anomalies, as shown in Table 2.

                            Table 2. MODS Anomalies at P&DCs

                        Total                               Anomalies
                       Lines
                    of MODS                        Mis-     % of    Auto-    % of             % of
 Facility               Data     Total    %    clocking     Total   credit   Total   Other    Total
 xxxxxxxxxxxx            813       94    12            56     60        34     36       4        4
 xxxxxxxxxx              717     152     21            74     49        69     45       9        6
 xxxxxxxxxxxxxx          411       79    19            56     71         9     11      14       18
 xxxxxxxxxx
  xxxxx                  832     101     12            36     36        43     42       6        6
 xxxxxxxxx
  xxxxx                  618     133     22           103     77        30     23       0        0
 xxxxxxxxxxxx            733     129     18            71     55        48     37      10        8
 xxxxxxxxxxx
  xxxx                   655       89    14            52     58        37     42       0        0
 xxxxxxxxxxxxx           637     131     21            84     64        46     35       1        1
 xxxxxxxxxx              875     154     18           139     90        15     10       0        0
  Totals               6,291    1,062    17           671     63     331       31      44        6




                                                  9
Follow-up Audit of the Management Operating Data System                                      CRR-AR-09-004



Misclocking Errors

Misclocking occurs when an employee is incorrectly clocked into one MODS operation,
but the volume is recorded in another MODS operation. Employees are assigned a
base operation on their time badges corresponding to the operation they are most likely
to perform when beginning their tour. When employees swipe their badges on an EBR,
they are automatically clocked into their base operation. If they are not working in their
base operation, the employees must enter the three-digit MODS operation number into
the EBR to clock into their correct operation. Periodic verification of base operation
code assignments by facility managers could help correct the anomalies.

Misclocking can also occur if employees do not record moves to another MODS
operation. At the nine facilities we examined, seven to 42 EBRs were located at each
facility. Supervisors are responsible for monitoring employee moves to operations and
ensuring that the correct operation codes are entered.13 At four of the nine facilities, the
mail volume in some MODS operations was minimal. We were informed that some
supervisors did not always want employees to record moves from one MODS operation
to another if the MODS operations were of short duration, and that walking to and from
the nearest EBR would take more time than performing the operation.

The current MODS training materials were issued in 2000, so they may not reflect the
current operational environment and MODS updates. The Postal Service expects to
issue an updated Handbook M-32 in FY 2009. Updating training materials and
conducting training sessions for supervisors and employees that emphasize the
importance of clocking into the correct MODS operation could reduce the number of
MODS data anomalies.

Auto-Credit Anomalies

WebEOR auto-credits caused about 31 percent of the anomalies. The anomalies
occurred when WebEOR auto-credited mail volume back to certain operations, but the
MODS facility did not work those operations on those days. For example, according to
historical data, three opening operations – MODS operation numbers 021, 110, and 180
– might send mail to MODS operation 281. The three MODS operations would receive
an auto-credit of workhours based on the percentage of FHP volume in MODS
operation 281. Since no corresponding workhours for the FHP mail volume are
allocated to these activities, the supervisor should provide headquarters with corrected
data.

The allocation of mail volume to manual activities is determined by surveys that are
conducted annually at each facility. The facilities send these surveys to headquarters,
where the percentages are calculated and entered into mail flow programs. Ensuring


13
     Supervisors can retroactively make adjustments in TACS to reflect the proper operation code.




                                                           10
Follow-up Audit of the Management Operating Data System                                    CRR-AR-09-004



that mail flow programs are current and complete can reduce the number of MODS
anomalies caused by auto-credits.

Miscellaneous Errors

Other causes accounted for about 6 percent of the anomalies. Most of these anomalies
occurred in operations where there was no measurement of volume. For example, in
operation 208 (Scan Where You Band [SWYB]), facility managers stated there was no
productivity goal or requirement to record mail volume. Current procedures do not
detail the data requirements for MODS operation numbers. However, new policies and
procedures to be issued in FY 2009 will detail the data requirements for each MODS
operation number. This along with developing updated training materials should help
facilities determine which operation numbers have volume measurements. Other
causes of anomalies were delays in transmitting data — for example, delays in
recording WebEOR auto-credits in MODS.

Management Actions

Management is reviewing the utility of more than 800 MODS operation numbers, many
of which capture similar mail processing activities. For example, MODS operation
numbers 050, 051, 052, 053, 054 and 055 capture manual priority distribution mail
processing activities. An employee may be clocked into operation 053 (Manual Priority
Flats Distribution – Primary Incoming), but may be working in operation 055 (Manual
Priority Distribution, Mixed Shapes – Primary Incoming). Managers at MODS facilities
informed us that MODS operation numbers should be consolidated.

During our audit, the Postal Service created a MODS simplification project to produce a
streamlined listing of MODS operation numbers that still communicated relevant mail
processing information. Their effort will focus on functions 1 and 4.14 Management
believes that streamlining MODS operation numbers will improve mail processing by:

     •   Reducing employee moves on the clock.

     •   Reducing the time spent by supervisors in correcting erroneous clock rings.

     •   Reporting more accurate volume and workhour data.

The streamlined MODS operation numbers could reduce MODS anomalies and improve
the accuracy of MODS volume and workhour reporting. The Postal Service is also
adjusting the WebEOR auto-credits. This could also help reduce the number of MODS
anomalies related to auto-credits. Therefore, we are not making recommendations on
these issues.

14
  Function 1 is a group of mail processing operations. Function 4 is a group of customer service operations that
handles mail.




                                                         11
Follow-up Audit of the Management Operating Data System             CRR-AR-09-004




The Postal Service has also developed MODS exception reports in MIRS. Currently,
the exception reports detail zero workhours but volume recorded, and zero volume but
workhours recorded MODS anomalies. We used the MODS exception reports to
identify frequently occurring MODS anomalies at facilities. Managers at the facilities
were not familiar with the MODS exception reports, but used the reports we provided to
identify and correct recurring MODS data anomalies. Developing guidance and
ensuring MODS users are trained in the use of MODS exception reports to identify and
correct recurring MODS data anomalies would help reduce the number of MODS
anomalies.




                                                 12
Follow-up Audit of the Management Operating Data System                           CRR-AR-09-004



     APPENDIX C: TOP 20 MODS OPERATION NUMBERS WITH ANOMALIES

  MODS                                                           Number of   Lines of
Operation                                                          MODS       MODS                Reason
 Number     LDC                   Description                    Anomalies     Data     Percent    Code
   212       17   Platform – Outbound                                 903       1,119    80.7       5, 6
   002       17   Presort First-Class Mail®                            871       945     92.2      1, 6
   066       17   Advanced Facer Canceller System (AFCS)               794      1,078    73.7      4, 5
                  Video Facing Mode
   067       17   AFCS Cancelled Mode                                  786      1,003    78.4      4, 5
   110       17   Opening Unit – Outgoing Preferential Mail            753      1,648    45.7     5, 6, 7
   169       14   Manual Letter Box Section, Main Office –             627      1,100    57.0      3, 6
                  Secondary
   896       11   Delivery Bar Code Sorter or Delivery                 612      1,726    35.5       5
                  Input/Output Subsystem, Bar Code Sorter
                  Mode, Secondary – Incoming
   014       17   Flyer                                                610      1,064    57.3      4, 5
   208       17   SWYB                                                 574       906     63.4      5, 6
   016       17   Flat Canceller                                       556      1,038    53.6      4, 5
   112       17   Manual Tray Separation, Preferential                 540      1,026    52.6     5, 6, 7
   010       17   Hand Cancellations – Letters                         516      1,635    31.6      4, 5
   846       11   Multiline Optical Character Reader Chunky            512       567     90.3      2, 6
                  Mode, Secondary – Incoming
   185       17   Opening Unit, Standard – Incoming                    509      1,605    31.7      5, 6
   040       14   Manual Letter, Secondary Distribution –              477      1,498    31.8      5, 6
                  Outgoing
   060       14   Manual Flat, Primary Distribution – Outgoing         463      1,523    30.4      5, 6
   178       14   Manual Flat Box Section, Main Office –               447       914     48.9      5, 6
                  Primary
   209       17   Automatic Airline Assignment                         440       530     83.0      5, 6
   181       17   Opening Unit, Preferential – Incoming                435       820     53.0      5, 6
   070       14   Manual Flat, Secondary Distribution –                434       710     61.1      5, 6
                  Outgoing
                   Totals                                           11,859    22,455     52.8
                            Reason Codes for Possible Causes of Anomalies
    1       TACS Default Operation Number. LDC 17 employee not assigned a base operation
            number in TACS database. TACS automatically assigned operation 002. 
    2       TACS Default Operation Number. LDC 11 employee not assigned a base operation
            number in TACS database. TACS automatically assigned operation 846. 
    3       TACS Default Operation Number. LDC 14 employee not assigned a base operation
            number in TACS database. TACS automatically assigned operation 169. 
    4       Employee working other cancellation equipment or hand cancellations. Employee rotated
            among operations 010, 011, 012, 013, 014, 015, 016, 066, and 067.
    5       Misclocking — If volume and no workhours, employee had not moved to the new activity. 
    6       If workhours and no volume, no auto-credit from WebEOR to MODS established for volume
            or no manual input of workload if applicable.
    7       If volume and no workhours, auto-credit from WebEOR to MODS had not been updated to
            eliminate volume auto-credited.




                                                     13
Follow-up Audit of the Management Operating Data System   CRR-AR-09-004



                      APPENDIX D: MANAGEMENT’S COMMENTS




                                                 14
Follow-up Audit of the Management Operating Data System   CRR-AR-09-004




                                                 15
Follow-up Audit of the Management Operating Data System   CRR-AR-09-004




                                                 16
